App. 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60807
Summary Calendar
PAUL WINFIELD,
Petitioner – Appellant
v.
UNITED STATES PROBATION & PRETRIAL
SERVICES; CHIRS COUNT,
Respondents – Appellees
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 5:18-CV-11
[The original is electronically stamped with the
following:]
FILED
June 24, 2020
Lyle W. Cayce
Clerk
Before CLEMENT, ELROD, and OLDHAM,
Circuit Judges.
PER CURIAM:*

*Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R.
47.5.4.

App. 2

Paul Winfield, former federal prisoner # 17050043, appeals the district court’s dismissal of his 28
U.S.C. § 2241 petition in which he challenged his
conviction for bribery concerning programs receiving
federal funds, in violation of 18 U.S.C. § 666(a)(1)(B).
The district court found that he did not satisfy the
savings clause of 28 U.S.C. § 2255(e). We review the
district court’s factual findings for clear error and its
legal conclusions de novo. Christopher v. Miles, 342
F.3d 378, 381 (5th Cir. 2003).
A prisoner may use § 2241 to challenge his
conviction only if the remedy under § 2255 is
inadequate or ineffective to contest the legality of his
detention. § 2255(e). Winfield must establish the
inadequacy or ineffectiveness of a § 2255 motion by
satisfying the criteria of the savings clause of § 2255.
See § 2255(e); Jeffers v. Chandler, 253 F.3d 827, 830
(5th Cir. 2001); Reyes-Requena v. United States, 243
F.3d 893, 904 (5th Cir. 2001). Under this circuit’s
existing precedent, Winfield can meet that criteria if
he shows that his petition presents a claim based on
a retroactively applicable Supreme Court decision
that supports that he may have been convicted of a
nonexistent offense and that the claim was foreclosed
by circuit law when it should have been raised at
trial, on direct appeal, or in his initial § 2255 motion.
See Reyes-Requena, 243 F.3d at 904.
Winfield contests the legality of his conviction
and argues that he can satisfy the Reyes-Requena
criteria in light of the Supreme Court’s decision in
McDonnell v. United States, 136 S. Ct. 2355 (2016).
He contends that even though the Court in
McDonnell did not construe his statute of conviction,
the decision—which he asserts is retroactively
applicable—is apposite because it narrowed the
conduct that qualified as bribery and set forth

App. 3

principles for how guilt should be decided in
prosecutions for federal bribery offenses. Winfield
asserts that the holding of McDonnell indicates that
§ 666 is overbroad, that he was charged with, and
convicted of, a nonexistent offense, and that his
prosecution raised federalism concerns.
In McDonnell, the Court construed the definition
of “official act” as used in 18 U.S.C. § 201(a)(3), and
did not delimit, consider, or invalidate an element of
§ 666. See 136 S. Ct. at 2365-2375. The decision in
McDonnell did not address § 666 and interpreted a
component of a materially different crime. 136 S. Ct.
at 2365-75. Moreover, a bribery offense under § 666
is not restricted to “official acts,” as defined in §
201(a)(3) and interpreted by McDonnell, and broadly
bars corruptly soliciting or accepting a thing of value
in exchange for influence or reward in connection
with any business, transaction, or series of
transactions. § 666(a)(1)(B) & § 666(b); see United
States v. Whitfield, 590 F.3d 325, 345-47 (5th Cir.
2009); cf. Salinas v. United States, 522 U.S. 52, 56-58
(1997) (describing expansive language of § 666 and
rejecting arguments in favor of circumscribing text).
Thus, there is no basis to conclude that the holding
of McDonnell applies to the expansive language of §
666 that, by its plain text, covers more than “official
acts.” See § 666(a)(1)(B) & § 666(b).
Winfield has not shown that he was convicted of
a nonexistent offense in light of McDonnell. Thus,
regardless whether McDonnell applies retroactively,
or his instant challenge to § 666 was previously
foreclosed, he has not established that he can meet
the Reyes-Requena requirements to proceed under
the savings clause. 243 F.3d at 903-04; see also
Jeffers, 253 F.3d at 830.

App. 4

Accordingly, the judgment of the district court is
AFFIRMED.

App. 5

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION
NO. 5:18-cv-11-KS-MTP
PAUL WINFIELD PETITIONER
v.
UNITED STATES PROBATION &
PRETRIAL SERVICES and CHRIS
RESPONDENTS

COUNTS

ORDER ACCEPTING MAGISTRATE
JUDGE’S RECOMMENDATION AND DISMISSING
CASE WITH PREJUDICE, ETC.
This cause is before the Court on Petition for writ of
habeas corpus filed pursuant to 28 U.S.C. § 2241
[1]
by
Paul
Winfield,
the
Report
and
Recommendation [12] of Magistrate Judge Micharl
T. Parker, Petitioner’s Objections [13] to Report and
Recommendation, Response in Opposition [14] to
Petitioner’s Objection, and the records and pleadings
herein and the Court does hereby find as follows to
wit:
I. BACKGROUND
Petitioner Paul Winfield is the former mayor of
Vicksburg, Mississippi. On March 19, 2013,
Petitioner, while serving as mayor, was indicted for
theft or bribery concerning programs receiving

App. 6

federal funds in violation of 18 U.S.C. § 666(a)(1)(B). 1
Following a guilty plea, Petitioner was convicted of
this crime in the United States District Court for the
Southern District of Mississippi on or about
November 19, 2013. See United States v. Winfield,
5:13-cv-5-DCB-FKB (S.D. Miss 2013). Petitioner was
sentenced to a 25-month term of imprisonment and a
three-year term of supervised release. Id. Petitioner
completed his term of imprisonment.
On January 16, 2018, Petitioner, while serving
his term of supervised release, filed the instant
Petition [1], arguing that his conviction is no longer
valid in light of the Supreme Court’s holding in
McDonnell v. United States, 136 S.Ct. 2355 (2016).
On March 21, 2018, Respondent filed a Response [9],
arguing that this Court does not have jurisdiction to
consider this § 2241 habeas petition.
II. STANDARD OF REVIEW
When a party objects to a Report and
Recommendation this Court is required to “make a
de novo determination of those portions of the report
or specified proposed findings or recommendations to
which objection is made.” 28 U.S.C. § 636(b)(1). See
also Longmire v. Gust, 921 F.2d 620, 623 (5th Cir.
1991) (Party is “entitled to a de novo review by an
Article III Judge as to those issues to which an
objection is made.”) Such review means that this
1

Pursuant to § 666(a)(1)(B), it is a crime if a state, local, or
tribal official “corruptly solicits or demands for the benefit of
any person, or accepts or agrees to accept, anything of value
from any person, intending to be influenced or rewarded in
connection with any business, transaction, or series of
transactions of such organization, government, or agency
involving any thing of value of $5,000 or more . . . .”

App. 7

Court will examine the entire record and will make
an independent assessment of the law. The Court is
not required, however, to reiterate the findings and
conclusions of the Magistrate Judge. Koetting v.
Thompson, 995 F.2d 37, 40 (5th Cir. 1993) nor need
it consider objections that are frivolous, conclusive or
general in nature. Battle v. United States Parole
Commission, 834 F.2d 419, 421 (5th Cir. 1997). No
factual objection is raised when a petitioner merely
reurges arguments contained in the original petition.
Edmond v. Collins, 8 F.3d 290, 293 (5th Cir. 1993).
III. PETITIONER’S OBJECTIONS AND
ANALYSIS
The Petitioner lodges three objections to the
Report and Recommendation. They are as follows:
1. That the wrong standard of review was
employed in determining whether a Supreme Court
case was retroactively applicable and that Petitioner
was required to prove that he was convicted of a nonexistent offense.
2. That the Report and Recommendation does not
contain any factual findings or factual analysis; and
3. That the Report and Recommendation is an
overly restricted reading of the Supreme Court’s
analogous precedent.
Winfield has not established that he may have
been convicted of a non-existent offense. McDonnell
v. United States, 136 S.Ct. 2355 (2016) is not
applicable. This case addressed an entirely different
statute. Petitioner made no effort to establish that he
was legally or factually innocent and the Court has
reviewed the Presentence Report that was filed in
the underlying criminal case, 5:13-cr-5-DCB-FKB.
Petitioner made no objections to the facts set forth in
the Presentence Report which was adopted by the

App. 8

Court. The factual basis set forth in the Presentence
Report clearly sets forth violations of the law. There
was also a factual basis stated by the prosecutor at
the guilty plea. The Court does not have access to the
factual basis but suffice to say Judge Bramlette
found that the Government had established a factual
basis for the crime and the factual basis was agreed
to by the Petitioner. Petitioner has the burden to
establish actual innocence which has has failed to do
and the Court finds that his first objection is
WITHOUT MERIT.
The second objection is that the Report and
Recommendation does not contain any factual
findings which support the conclusion that Mr.
Winfield failed to meet his burden to obtain habeas
relief. The authority cited by Petitioner was
Santillana v. Upton, 846 F.3d 779, 784 (5th Cir.
2017). In this case the facts were agreed to by the
Petitioner as set forth in the Presentence Report, the
factual basis agreed to by Petitioner and the findings
of Judge Bramlette. There is no issue for this Court
to make factual findings on. Everything was
admitted to by the Petitioner and adopted by the
Court. It is also telling that the Petitioner made very
little effort to point any facts out to the Court and
makes only bald assertions as to the applicable law
and the obligation of the Magistrate Judge to make
factual findings. The Court finds that this objection
to the Report and Recommendation is without basis
and is DENIED.
In the third objection Petitioner claims that the
Report and Recommendation unduly restricts the
reading of the Supreme Court’s analogous precedent.
Petitioner asks this Court to find that a Section 666
offense should be addressed as called for in
McDonnell. The instant case is distinguishable from

App. 9

McDonnell in that violations of the law were set

forth in the Presentence Report, agreed to by
Petitioner and found as facts by the Court. Petitioner
has cited no authority to this Court that convinces it
that a Section 666 offense to which Winfield pled
guilty require a McDonnell type interpretation, and
the Court finds that this objection is WITHOUT
MERIT.
IV. CONCLUSION
As required by 28 U.S.C. §636(b)(1) this Court
has conducted an independent review of the entire
record and a de novo review of the matters raised by
the objection. For the reasons set forth above, this
Court concludes that Winfield’s Objections lack merit
and should be overruled. The Court further
concludes
that
the
proposed
Report
and
Recommendation is an accurate statement of the
facts and the correct analysis of the law in all
regards. Therefore, the Court accepts, approves and
adopts the Magistrate Judge’s factual findings and
legal conclusions contained in the Report and
Recommendation.
Accordingly, it is ordered that United States
Magistrate Judge Michael T. Parker’s Report and
Recommendation is accepted pursuant to 28 U.S.C.
§636(b)(1) and that Paul Winfield’s claim is
DISMISSED WITH PREJUDICE. All other pending
motions are DENIED AS MOOT.
SO ORDERED this the 25th day of October, 2018.
s/Keith Starrett
UNITED STATES DISTRICT JUDGE

App. 10

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION
NO. 5:18-cv-11-KS-MTP
PAUL WINFIELD PETITIONER
v.
UNITED STATES PROBATION &
PRETRIAL SERVICES and CHRIS
RESPONDENTS

COUNTS

REPORT AND RECOMMENDATION
BEFORE THE COURT is the Petition of Paul
Winfield for a writ of habeas corpus pursuant to 28
U.S.C. § 2241. Having considered the submissions of
the parties and the applicable law, the undersigned
recommends that the Petition [1] be DENIED.
BACKGROUND
Petitioner Paul Winfield is the former mayor of
Vicksburg, Mississippi. On March 19, 2013,
Petitioner, while serving as mayor, was indicted for
theft or bribery concerning programs receiving
federal funds in violation of 18 U.S.C. § 666(a)(1)(B).1
1

Pursuant to § 666(a)(1)(B), it is a crime if a state, local, or
tribal official “corruptly solicits or demands for the benefit of
any person, or accepts or agrees to accept, anything of value
from any person, intending to be influenced or rewarded in
connection with any business, transaction, or series of
transaction of such organization, government, or agency
involving any thing of value of $5,000 or more . . . .”

App. 11

Following a guilty plea, Petitioner was convicted of
this crime in the United States District Court for the
Southern District of Mississippi on or about
November 19, 2013. See United States v. Winfield,
5:13-cv-5-DCB-FKB (S.D. Miss 2013). Petitioner was
sentenced to a 25-month term of imprisonment and a
three-year term of supervised release. Id. Petitioner
completed his term of imprisonment. On January 16,
2018, Petitioner, while serving his term of supervised
release, filed the instant Petition [1], arguing that
his conviction is no longer valid in light of the
Supreme Court’s holding in McDonnell v. United
States, 136 S.Ct. 2355 (2016). On March 21, 2018,
Respondent filed a Response [9], arguing that this
Court does not have jurisdiction to consider this §
2241 habeas petition.
ANALYSIS
The general rule is that a challenge to the
validity of a conviction or sentence must be pursued
in a motion filed pursuant to 28 U.S.C. § 2255. See
Pack v. Yusuff, 218 F.3d 448, 451-52 (5th Cir. 2000);
Tolliver v. Dobre, 211 F.3d 876, 877 (5th Cir. 2000).
Petitioner, however, is proceeding under 28 U.S.C. §
2241, which is generally used to attack the manner
in which a sentence is executed. Id.2 There is a
savings clause in § 2255 which acts as a limited
exception to these general rules and allows a § 2241
petition under certain limited circumstances. This
savings clause provides as follows:
An applicant for a writ of habeas corpus
in behalf of a prisoner who is authorized

2

Presumably, Petitioner did not proceed under § 2255 because
such a motion may be time barred under § 2255(f)’s one-year
limitations period. That issue, however, is not before this Court.

App. 12

to apply for relief by motion pursuant to
this section, shall not be entertained if
it appears that the applicant has failed
to apply for relief, by motion, to the
court which sentenced him, or that such
court has denied him relief, unless it
also appears that the remedy by motion
is inadequate or ineffective to test the
legality of his detention.
28 U.S.C. § 2255(e).
Thus, “a section 2241 petition that seeks to
challenge a federal sentence or conviction—thereby
effectively acting as a section 2255 motion—may only
be entertained when the petitioner establishes that
the remedy provided for under section 2255 is
inadequate or ineffective.” Pack, 218 F.3d at 452
(citations omitted). Petitioner bears the burden of
establishing the inadequateness or ineffectiveness of
the Section 2255 remedy. Id. To satisfy the
requirements of the savings clause, Petitioner must
demonstrate that (1) he raises a claim “that is based
on a retroactively applicable Supreme Court
decision,” (2) the claim was previously “foreclosed by
circuit law at the time when [it] should have been
raised in petitioner’s trial, appeal or first § 2255
motion,” and (3) the retroactively applicable decision
establishes that “the petitioner may have been
convicted of a nonexistent offense” or, in other words,
the petitioner may be actually innocent. ReyesRequena v. United States, 243 F.2d 893, 904 (5th
Cir. 2001).
Petitioner argues that the Supreme Court’s
holding in McDonnell v. United States, 136 S.Ct.
2355 (2016) establishes that he was convicted of a
nonexistent offense, that the United States employed

App. 13

an overbroad reading of Section 666, and that the
United States breached the boundaries of federalism.
Respondent argues that Petitioner has not met the
requirements of the savings clause because he has
failed to demonstrate that he was convicted of a
nonexistent offense based on a retroactively
applicable Supreme Court decision. Specifically,
Respondent argues that Petitioner’s reliance on
McDonnell is misplaced as McDonnell does not apply
to Petitioner’s conviction under 18 U.S.C. §
666(a)(1)(B). The undersigned agrees.
In McDonnell, the Supreme Court considered the
proper interpretation of an “official act” under the
federal bribery statute, 18 U.S.C. § 201(a)(3). In that
case, the United States indicted former Virginia
Governor Robert McDonnell and his wife on bribery
charges, including honest services wire fraud under
18 U.S.C. § 1343 and Hobbs Act extortion.
McDonnell, 136 S.Ct. at 2365. The parties agreed
that in the jury instructions they would define these
crimes with reference to § 201 and its definition of
“official act.” Id. The Supreme Court held that the
jury instructions defined “official act” too broadly,
and the Supreme Court adopted a “more bounded
interpretation of ‘official act.’” Id. at 2368, 2375.
Thus, the Supreme Court vacated McDonnell’s
convictions and remanded the case for further
proceedings consistent with the opinion. Id. at 2375.
In the case sub judice, Petitioner was convicted
under 18 U.S.C. § 666, a statute which was not at
issue in McDonnell. Acknowledging that § 666 was
not specifically at issue in McDonnell, Petitioner
argues that McDonnell “represents a sea change in
federal public corruption prosecutions, and sets forth
broad principles and concerns that touch on the
‘criterion of guilt’ in such cases.” See Reply [11] at 1.

App. 14

At least one district court within this circuit has
addressed whether McDonnell represents a
retroactively applicable Supreme Court decision
establishing that a conviction under § 666 may be a
conviction of a “nonexistent offense.” In Montemayor
v. Warden, FCC Beaumont, the court held as follows:
[I]n McDonnell, the Supreme Court
interpreted the term “official act,” an
element of the offense under 18 U.S.C. §
201(b). However, an official act is not an
element of the offense under 18 U.S.C. §
666. Moreover, petitioner has failed to
show McDonnell has been made
retroactively applicable to cases on
collateral review. See In re Lott, 838
F.3d 522, 523 (5th Cir. 2016) (denying
leave to file successive § 2255 because
defendant failed to show McDonnell set
forth new rule of constitutional law
made retroactive to cases on collateral
review).
2017 WL 9480871, at *2 (E.D. Tex. April 25, 2017),
report and recommendation adopted, 2018 WL
2411780 (E.D. Tex. May 29, 2018).
Other courts have declined to extend the holding
in McDonnell to statutes beyond § 201. “Although
the statues in McDonnell and here both involve
bribery, we see no reason for transplanting the
conclusions in McDonnell that stem solely from the
Court’s application of general statutory-construction
principles to the particular statute at issue in that
case.” United States v. Ferriero, 866 F.3d 107, 128
(3rd Cir. 2017). Moreover, courts have specifically
declined to extend the McDonnell standard to § 666.
See United States v. Porter, 886 F.3d 562, 565-66

App. 15

(6th Cir. 2018) (“In McDonnell, the Supreme Court
limited the interpretation of the term ‘official act’ as
it appears in § 201, an entirely different statute than
the one at issue here[, § 666].”); United States v.
Boyland, 862 F.3d 279, 291 (2nd Cir. 2017) (“We do
not see that the McDonnell standard applied to these
counts.”); United States v. Maggio, 862 F.3d 642, 646
n.8 (8th Cir. 2017) (“McDonnell had nothing to do
with § 666”); United States v. Jackson, 688 Fed.
App’x 685, 696 n.9 (11th Cir. 2017) (stating that
McDonnell was materially different from a
prosecution under § 666 because, among other
things, “§ 666(a)(1)(B) does not use the term ‘official
act’”); United States v. Ferguson, 2018 WL 1071743,
at *4 (E.D. Mich. Feb 27, 2018) (“McDonnell does not
apply to 18 U.S.C. § 666”); United States v. Gilbert,
2018 WL 2095853, at *6-7 (N.D. Ala. May 4, 2018)
(declining to “apply the ‘official act’ requirement to
Section 666”); United States v. Robles, 698 Fed.
App’x 905, 609 (9th Cir. 2017) (pointing out that
McDonnell “addressed the interpretation of statutes
other than § 666.”); United States v. BravoFernandez, 246 F. Supp. 3d 531, 536 (D.P.R. 2017)
(holding that certain Supreme Court decisions,
including McDonnell, have “nothing to do with
section 666”).
Petitioner has failed to demonstrate that a
retroactively applicable Supreme Court decision
establishes that he was convicted of a nonexistent
offense. Accordingly, Petitioner has failed to meet his
burden of showing that he is entitled to proceed with
this § 2241 habeas petition under the savings clause
of § 2255.3
3

In addition to his argument that he was convicted of a
nonexistent offense, Petitioner also argues that McDonnell

App. 16

RECOMMENDATION
Based on the foregoing, the undersigned
recommends that the Petition [1] for a writ of habeas
corpus pursuant to 28 U.S.C. § 2241 be DISMISSED
with prejudice.
NOTICE OF RIGHT TO OBJECT
In accordance with the rules and 28 U.S.C. §
636(b)(1), any party within fourteen days after being
served a copy of this recommendation, may serve and
file written objections to the recommendations, with
a copy to the judge, the magistrate judge and the
opposing party. The District Judge at the time may
accept, reject or modify in whole or part, the
recommendations of the Magistrate Judge, or may
receive further evidence or recommit the matter to
this Court with instructions. The parties are hereby
notified that failure to file written objections to the
proposed
findings,
conclusions,
and
recommendations contained within this report and
recommendation within fourteen days after being
served with a copy shall bar that party, except upon
grounds of plain error, from attacking on appeal the
proposed factual findings and legal conclusions
accepted by the district court to which the party has
not objected. Douglass v. United Servs. Auto. Ass’n,
79 F.3d 1415, 1428-29 (5th Cir. 1996).
establishes that the United States employed an overbroad
reading of Section 666 and that the United States breached the
boundaries of federalism. However, Petitioner’s entire Petition
[1] must be analyzed through the lens of the savings clause. See
Pack, 218 F.3d at 452. The saving clause requires Petitioner to
show that a retroactively applicable Supreme Court decision
establishes that he was convicted of a nonexistent offense. As
previously discussed, Plaintiff has failed to make this showing.

App. 17

THIS the 9th day of August, 2018.
s/Michael T. Parker
UNITED
STATES
JUDGE

MAGISTRATE

App. 18

18 U.S.C.A. § 666
§ 666. Theft or bribery concerning programs
receiving Federal funds
(a) Whoever, if the circumstance described in
subsection (b) of this section exists—
(1) being an agent of an organization, or of a
State, local, or Indian tribal government, or any
agency thereof—
(A) embezzles, steals, obtains by fraud, or
otherwise without authority knowingly converts to
the use of any person other than the rightful owner
or intentionally misapplies, property that—
(i) is valued at $5,000 or more, and
(ii) is owned by, or is under the care, custody, or
control of such organization, government, or agency;
or
(B) corruptly solicits or demands for the benefit
of any person, or accepts or agrees to accept,
anything of value from any person, intending to be
influenced or rewarded in connection with any
business, transaction, or series of transactions of
such organization, government, or agency involving
any thing of value of $5,000 or more; or
(2) corruptly gives, offers, or agrees to give
anything of value to any person, with intent to
influence or reward an agent of an organization or of
a State, local or Indian tribal government, or any
agency thereof, in connection with any business,
transaction, or series of transactions of such
organization, government, or agency involving
anything of value of $5,000 or more;

App. 19

shall be fined under this title, imprisoned not
more than 10 years, or both.
(b) The circumstance referred to in subsection (a)
of this section is that the organization, government,
or agency receives, in any one year period, benefits in
excess of $10,000 under a Federal program involving
a grant, contract, subsidy, loan, guarantee,
insurance, or other form of Federal assistance.
(c) This section does not apply to bona fide
salary, wages, fees, or other compensation paid, or
expenses paid or reimbursed, in the usual course of
business.
(d) As used in this section—
(1) the term “agent” means a person authorized
to act on behalf of another person or a government
and, in the case of an organization or government,
includes a servant or employee, and a partner,
director, officer, manager, and representative;
(2) the term “government agency” means a
subdivision of the executive, legislative, judicial, or
other branch of government, including a department,
independent
establishment,
commission,
administration, authority, board, and bureau, and a
corporation or other legal entity established, and
subject to control, by a government or governments
for the execution of a governmental or
intergovernmental program;
(3) the term “local” means of or pertaining to a
political subdivision within a State;
(4) the term “State” includes a State of the
United States, the District of Columbia, and any
commonwealth, territory, or possession of the United
States; and

App. 20

(5) the term “in any one-year period” means a
continuous period that commences no earlier than
twelve months before the commission of the offense
or that ends no later than twelve months after the
commission of the offense. Such period may include
time both before and after the commission of the
offense.

App. 21

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
WESTERN DIVISION
CRIMINAL NO. 5:13-cr-5-DCB-FKB
18 U.S.C. § 666(a)(1)(B)
UNITED STATES OF AMERICA
v.
PAUL WINFIELD
[The original is stamped with the following:]
FILED
MAR 19, 2013
J.T. NOBLIN, CLERK
The Grand Jury charges:
1.
At all times material to this Indictment,
the City of Vicksburg, Mississippi was a local
government, as that that term is defined in Section
666(d), Title 18, United States Code, that received
federal assistance in excess of $10,000 during the
one-year period beginning January 1, 2012, and
ending December 31, 2012.
2.
Defendant PAUL WINFIELD was the
duly elected mayor of the City of Vicksburg,
Mississippi, and as such was an agent of Vicksburg,
as that term is defined in Section 666(d), Title 18,
United States Code.

App. 22

3.
That from on or about July 2012 until
on or about December 2012, in Adams County, in the
Western Division of the Southern District of
Mississippi, and elsewhere, the defendant, PAUL
WINFIELD, did corruptly solicit, demand, accept
and agree to accept multiples things of value from a
person, intending to be influenced and rewarded in
connection with a transaction and series of
transactions of the City of Vicksburg, Mississippi,
involving a thing of value of $5,000 or more.
All in violation of Section 666(a)(1)(B), Title
18, United States Code.
NOTICE OF INTENT TO SEEK CRIMINAL
FORFEITURE
Upon conviction of Title 18, United States
Code, Section 666(a)(1)(B) set forth in this
Indictment, the defendant, PAUL WINFIELD, shall
forfeit to the United State of America, pursuant to
Title 18, United States Code, Section 981(a)(1)(C)
and Title 28, United States Code, Section 2461(c),
any property, real or personal, which constitutes or
is derived from proceeds traceable to the offense,
including but not limited to:
$7,000.00 MONEY JUDGMENT
If any of the property described above, as a
result of any act or omission of the defendant: (a)
cannot be located upon the exercise of due diligence;
(b) has been transferred or sold to, or deposited with,
a third party; (c) has been placed beyond the
jurisdiction of the court; (d) has been substantially
diminished in value; or (e) has been commingled with
other property which cannot be divided without
difficulty, the United States of America shall be
entitled to forfeiture of substitute property pursuant
to Title 21, United States Code, Section 853(p), as

App. 23

incorporated by Title 28, United States Code, Section
2461(c).
All pursuant to Section 981(a)(1)(C), Title 18,
United States Code, and Section 2461(c), Title 28,
United States Code.
s/ Gregory K. Davis
GREGORY K. DAVIS
United States Attorney
A TRUE BILL:
S/SIGNATURE REDACTED
Foreperson of the Grand Jury
This indictment was returned in open court by the
foreperson or deputy foreperson of the grand jury on
this the 19th day of March, 2013.
s/ F. Keith Ball
UNITED
STATES
JUDGE

MAGISTRATE

